CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA PLATINUM VARIABLE
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
This APR will vary with the market based on the Prime Rate.
9.25%
APR for Balance Transfers
This APR will vary with the market based on the Prime Rate.
9.25%
APR for Cash Advances
This APR will vary with the market based on the Prime Rate.
Paying Interest
Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
For Credit Card Tips from the
To learn more about factors to consider when applying for or using a
Consumer Financial Protection Bureau credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
Fees
Transaction Fees
None
- Balance Transfer Fee
None
- Cash Advance Fee
- Foreign Transaction Fee
1.00% of each transaction in U.S. dollars

9.25%

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are one or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Charter Oak Federal Credit Union

00607254-MXC20-P-1-051517 (MXC201-E)

Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$25.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Rush Fee:
$25.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Collection Costs:
For Connecticut Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement,
including reasonable attorney's fees not in excess of 15.00% of any judgment and all court costs.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
The Purchase APR is 9.25% which is a daily periodic rate of 0.0253%.
The Balance Transfer APR is 9.25% which is a daily periodic rate of 0.0253%.
The Cash Advance APR is 9.25% which is a daily periodic rate of 0.0253%.
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle quarterly to reflect any change in the Index and will be determined by the Prime Rate on
first Tuesday of January, April, July, and October of each year, to which We add a margin. The ANNUAL PERCENTAGE
RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will result in an increase in
the amount of the interest You will pay, may increase Your minimum payment, and may increase the number of payments
to pay off Your balance. If the Index is no longer available, the Credit Union will choose a new index which is based upon
comparable information.
Margin:
6.00% above the Index.
Purchases will be charged at
6.00% above the Index.
Balance Transfers will be charged at
Cash Advances will be charged at
6.00% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Charter Oak Federal Credit Union

00607254-MXC20-P-1-051517 (MXC201-E)

